HHS/OIG, Audit -"Seven States' Medicaid Claims for 21- to 64-Year-Old Residents of Private and County-Operated
Institutions for Mental Diseases,"(A-02-04-01034)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Seven States' Medicaid Claims for 21- to 64-Year-Old Residents of Private and County-Operated Institutions for
Mental Diseases," (A-02-04-01034)
January 12, 2005
Complete
Text of Report is available in PDF format (220 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report summarizes the results of our seven-State review of Medicaid claims for medical and ancillary services made
on behalf of 21- to 64-year-old residents of private and county-operated institutions for mental disease (IMDs).  A
common objective of these audits was to determine if controls were in place to preclude States from claiming Federal Medicaid
funds for medical and ancillary services, including inpatient psychiatric services, provided to 21- to 64-year-old residents
of private and county-operated IMDs.  Controls in several states reviewed were generally not adequate to prevent Federal
Medicaid claims medical and ancillary services provided to 21- to 64-year-old residents of private and county-operated
IMDs.  We found that the seven states improperly claimed a total of $6,149,988 in Federal Medicaid funds during various
audit periods.  This summary report does not contain any recommendations.